<html>
<title> - NOMINATION OF HON. PETER T. GAYNOR</title>
<body><pre>[Senate Hearing 116-188]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 116-188
 
                   NOMINATION OF HON. PETER T. GAYNOR

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                              
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
               
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS


                             FIRST SESSION

                               __________

        NOMINATION OF HON. PETER T. GAYNOR TO BE ADMINISTRATOR,
   FEDERAL EMERGENCY MANAGEMENT AGENCY, U.S. DEPARTMENT OF HOMELAND 
                                SECURITY

                               __________

                           NOVEMBER 14, 2019

        Available via the World Wide Web: http://www.govinfo.gov

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
        
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        




                            ______
                          

              U.S. GOVERNMENT PUBLISHING OFFICE 
 38-577 PDF              WASHINGTON : 2020
 
 
 
        

                    RON JOHNSON, Wisconsin, Chairman
ROB PORTMAN, Ohio                    GARY C. PETERS, Michigan
RAND PAUL, Kentucky                  THOMAS R. CARPER, Delaware
JAMES LANKFORD, Oklahoma             MAGGIE HASSAN, New Hampshire
MITT ROMNEY, Utah                    KAMALA D. HARRIS, California
RICK SCOTT, Florida                  KYRSTEN SINEMA, Arizona
MICHAEL B. ENZI, Wyoming             JACKY ROSEN, Nevada
JOSH HAWLEY, Missouri

                Gabrielle D'Adamo Singer, Staff Director
            Michelle D. Woods, Director of Homeland Security
               Andrew J. Timm, Professional Staff Member
             Barrett F. Percival, Professional Staff Member
               David M. Weinberg, Minority Staff Director
               Zachary I. Schram, Minority Chief Counsel
              Harlan C. Geer, Minority Staff Director, FSO
                 Claudine J. Brenner, Minority Counsel
          Jillian R. Joyce, Minority Professional Staff Member
                     Laura W. Kilbride, Chief Clerk
                     Thomas J. Spino, Hearing Clerk

                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator Hassan...............................................     3
    Senator Scott................................................     9
    Senator Hawley...............................................    12
    Senator Carper...............................................    14
    Senator Rosen................................................    17
    Senator Lankford.............................................    19
    Senator Romney...............................................    22
    Senator Sinema...............................................    28
Prepared statements:
    Senator Johnson..............................................    35
    Senator Hassan...............................................    36

                               WITNESSES
                      Thursday, November 14, 2019

Hon. Jack Reed, a U.S. Senator from the State of Rhode Island
    Testimony....................................................     1
    Prepared statement...........................................    38
Hon. Peter T. Gaynor to be Administrator, Federal Emergency 
  Management Agency, U.S. Department of Homeland Security
    Testimony....................................................     4
    Prepared statement...........................................    39
    Biographical and professional information....................    41
    Letter from the Office of Government Ethics..................    61
    Responses to pre-hearing question............................    64
    Responses to post-hearing questions..........................    97
    Letter of Support............................................   102


                      NOMINATION OF THE HONORABLE

                  PETER T. GAYNOR TO BE ADMINISTRATOR,

                      FEDERAL EMERGENCY MANAGEMENT

              AGENCY, U.S. DEPARTMENT OF HOMELAND SECURITY

                              ----------                              


                      THURSDAY, NOVEMBER 14, 2019

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:33 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Lankford, Romney, Scott, Hawley, 
Peters, Carper, Hassan, Sinema, and Rosen.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. Good morning. This hearing will be called 
to order.
    Today we are considering the nomination of Mr. Peter Gaynor 
to be the Administrator of the Federal Emergency Management 
Agency (FEMA), and I am pleased to see that Senator Jack Reed 
is here to introduce Mr. Gaynor. So, without further ado, 
Senator Reed.

   STATEMENT OF THE HONORABLE JACK REED,\1\ A UNITED STATES 
             SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Reed. Thank you very much, Mr. Chairman. Chairman 
Johnson, Senator Hassan, and Senator Scott, thank you for the 
opportunity to introduce Peter Gaynor, whom the President has 
nominated as the Administrator of the Federal Emergency 
Management Agency.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Reed appears in the Appendix 
on page 38.
---------------------------------------------------------------------------
    A little over a year ago, I had the opportunity to 
introduce Peter to the Committee at his confirmation hearing 
for the post of Deputy Administrator of FEMA. It is a pleasure 
to be back before you again.
    Let me begin by acknowledging Acting Administrator Gaynor's 
family and friends, particularly his wife, Sue. Thank you, Sue. 
I want to commend them for their great support of Peter of his 
entire career.
    FEMA is a flagship Federal agency for disaster preparedness 
and response. Today it faces extraordinary challenges 
confronting the very real effects of climate-related disasters, 
reforming the National Flood Insurance Program (NFIP), 
administering critical grant programs, and helping ready the 
Nation for possible chemical, biological, and radiological 
attacks.
    In carrying out their jobs, the 14,000 women and men of 
FEMA are often called upon to help people who are going through 
the worst experiences of their lives. These can be hard jobs. 
To ensure that the agency and its people are capable of meeting 
such extraordinary challenges, FEMA must have steady, 
competent, professional, and permanent leadership that forces a 
positive culture focused on its mission.
    Having started in the U.S. Marine Corps (USMC) as a Private 
and working his way up to Lieutenant Colonel, having served as 
a management director for the city of Providence in the State 
of Rhode Island, and having served as FEMA Deputy Administrator 
and Acting Administrator under President Trump, Peter Gaynor 
understands the importance of building a team that can fulfill 
its mission without fear or favor.
    Mr. Chairman, FEMA needs a capable leader at this critical 
time, and I hope you give Mr. Gaynor's nomination every 
consideration. Thank you for your consideration.
    Thank you.
    Chairman Johnson. Well, thank you, Senator Reed. You have 
pretty well stolen my thunder, so I will just ask that my 
written statement be entered in the record.\2\
---------------------------------------------------------------------------
    \2\ The prepared statement of Senator Johnson appears in the 
Appendix on page 35.
---------------------------------------------------------------------------
    I certainly want to welcome the nominee. Thank you for your 
service to this Nation. I want to welcome all your family 
members, encourage you during your opening statement to 
introduce them as well.
    The only thing I will add outside of my opening statement 
is, first of all, the feedback we have already gotten in terms 
of your acting capacity. You have just done an excellent job.
    The importance of leadership within FEMA, recognizing that 
FEMA is just not only FEMA, when a disaster hits--and I have 
been down there in the Operations Center when you just surge 
other Federal employees from the Federal workforce inside the 
Department of Homeland Security (DHS) and outside of DHS. That 
level of dedication is really pretty extraordinary, and those 
men and women need steady leadership which you have already 
provided in an acting capacity now, as you are nominee to be 
the full-time confirmed Administrator of FEMA. I just truly 
appreciate that.
    Also, I think your recognition, as we spoke, of the 
structure of emergency management, which is really locally 
executed, State and federally support, it kind of goes in that, 
and what we need to do and why we have all these grant 
programs, that the Federal Government encourage the States and 
the cities to be prepared, to mitigate any kind of natural 
disasters that occur, and then pretty much be able to handle it 
as best they can until it gets to a point where FEMA has to 
come in and then FEMA be ready to swoop in.
    Since Hurricane Katrina, I think the record is pretty 
clear, FEMA has really upped its game, and we are getting 
better and better and better at that as well.
    So, again, it is an agency that I think we have witnessed 
dramatic improvement. I come from a manufacturing background. 
Nothing is ever perfect. I am into continuous improvement, and 
I really, truly believe that you are the person that will 
continue us along that path.
    So, with that, I will turn it over to Senator Hassan.

             OPENING STATEMENT OF SENATOR HASSAN\1\

    Senator Hassan. Well, thank you, Mr. Chairman, and welcome, 
Mr. Gaynor.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Hassan appears in the 
Appendix on page 36.
---------------------------------------------------------------------------
    I want to thank Ranking Member Peters for the opportunity 
to serve as Ranking Member at this important hearing today.
    Mr. Gaynor, I want to thank you not only for being here 
this morning but for your service to our Nation as a marine and 
as an emergency manager and for the past year as Deputy and 
then Acting Administrator for FEMA.
    And I would be remiss if I did not also thank your family. 
Public service is a family business, and their support, I know, 
is incredibly important to you, and it has made your service 
possible, so a special thank-you to them.
    Our Nation faces serious challenges when it comes to 
emergency management, and I also want to take a moment to 
acknowledge the incredibly hardworking men and women at FEMA 
who really do extraordinary service in very difficult 
circumstances.
    But I want to focus a little bit on the challenges that I 
think are before FEMA as well that you are going to be asked to 
address. The science definitively shows, for instance, that 
climate change is causing more intense weather events with 
ever-increasing frequency. If FEMA ignores these realities, 
then it does so at the peril of the Americans who depend on the 
agency for mitigating and recovering from extreme natural 
disasters.
    We only have to look to the 2017 hurricane season, when 
major disasters concurrently struck Puerto Rico, Texas, 
Florida, and California, and overwhelmed FEMA's capabilities to 
give us a view of the future of effects of global climate 
change on U.S. safety and security.
    And beyond natural disasters, State and local governments 
are contending with a wide range of other catastrophic events. 
Across the Country, schools, hospitals, municipalities, county 
governments, and State agencies have been hit by an outbreak of 
ransomware attacks that are affecting key services and 
disrupting our economy.
    FEMA must work with its fellow agencies, including the 
Cybersecurity and Infrastructure Security Agency (CISA), in 
order to help State and local governments prevent and recover 
from these cyberattacks. The next Administrator must make this 
cooperation and coordination a key priority.
    Finally, FEMA must get its own house in order. Eighteen 
months ago, then Administrator Brock Long announced that sexual 
harassment at FEMA was a ``systemic problem going on for 
years'' and that senior officials at FEMA must work toward 
``the eradication of this cancer.'' Yet only now is FEMA's key 
management tool for addressing sexual harassment in the 
workplace, the Office of Professional Responsibility (OPR), 
being fully stood up and staffed. While steps are apparently 
under way toward changing FEMA's toxic culture, progress has 
not come fast enough, and much more work needs to be done.
    I truly appreciated our discussion yesterday in my office 
about these critical issues. I look forward to your testimony 
today and working with you to ensure that our Country has a 
healthy and fully functional emergency management component.
    Thank you, and thank you, Mr. Chair.
    Chairman Johnson. Thank you, Senator Hassan.
    It is the tradition of this Committee to swear in 
witnesses, so if you will stand and arise your right hand. Do 
you swear that the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Mr. Gaynor. I do.
    Chairman Johnson. Please be seated.
    Peter Gaynor has served as Acting Administrator for FEMA 
since March 8, 2019, as mentioned. He has over a decade of 
experience at local, State, and Federal levels of emergency 
management. Prior to his career in emergency management, he 
served for 26 years in the United States Marine Corps. Mr. 
Gaynor.

TESTIMONY OF THE HONORABLE PETER T. GAYNOR,\1\ NOMINATED TO BE 
   ADMINISTRATOR, FEDERAL EMERGENCY MANAGEMENT AGENCY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Gaynor. Good morning, Chairman Johnson, Ranking Member 
Hassan, and distinguished Members of the Committee. My name is 
Pete Gaynor, and it is a privilege to appear before you today 
as the President's nominee for the position of FEMA 
Administrator. Once again, I am honored to have been nominated 
by the President for this critical Federal Emergency Management 
leadership role.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Gaynor appears in the Appendix on 
page 39.
---------------------------------------------------------------------------
    I would first like to recognize a few members of my family 
and friends that are here today--my wife Sue, my friends, Peter 
Marinucci and Fred Stolle, who came from Rhode Island to give 
me support. So thanks for being here, and also thank you for 
all the support everyone has given me throughout my career. I 
really greatly appreciate that.
    To the Members of this Committee, I would like to thank you 
for the support and trust you have placed in me during my last 
confirmation hearing in August 2018 for the position of FEMA 
Deputy Administrator.
    Since my first day at FEMA, a little over a year ago, I 
have had the pleasure of serving the agency as both the Deputy 
and as the Acting Administrator. In these roles, I have 
traveled the Country, engaging with our dedicated and mission-
focused workforce. I firmly believe FEMA has the best mission 
in Federal Government. I have seen firsthand the dedication our 
employees exhibit from the FEMA Corps employee members to our 
incident workforce, local hires, reservists, and full-time 
employees. They are devoted every day to helping people before, 
during, and after disasters.
    Each disaster response must be locally executed, State 
managed, and federally supported. FEMA cannot accomplish this 
mission alone. It requires mature and strong partnerships at 
the State, local, tribal, and territorial (SLTT) levels. It 
requires a firm bond with our voluntary, non-governmental, and 
private partners. It requires a prepared citizenry across 
neighborhoods, businesses, and communities.
    Not to be forgotten is our many mission partners, the DHS 
Surge Capacity Force, the Department of Defense (DOD), the 
American Red Cross, and many others that make success possible. 
It is only through Unity of Effort that the Nation can be fully 
prepared for the next catastrophic event.
    Briefly, I would like to describe my background, 
experience, and qualifications for the position which I have 
been nominated. As previously stated, I have spent 26 years 
serving my Country in the United States Marine Corps as an 
enlisted marine and subsequently as a Commissioned Officer.
    I have learned how to succeed in chaotic situations, use 
intellect to overcome daunting obstacles, to never quit, and 
most importantly, that personal integrity is paramount.
    I know firsthand the importance of an effective emergency 
response and the Homeland Security mission. I served at 
Headquarters in the Marine Corps as the head of Operations and 
personally witnessed the attack on the Pentagon in our Country 
on September 11, 2001. Prior to September 11, 2001, I served as 
the Executive Officer responsible for the security of the 
President at Camp David.
    After retiring from the Marine Corps in late 2007, I 
transitioned into the field of emergency management, serving as 
the Emergency Management Director for both the city of 
Providence and the State of Rhode Island. I believe my time as 
an emergency manager at all levels, combined with my military 
service, gives me a unique perspective on the challenges for 
the position for which I am nominated.
    It is imperative that the American public have the highest 
trust and confidence in FEMA's capabilities. This agency is 
often the last line of hope when a disaster strikes and 
cripples a community. We must be able to deliver life-saving, 
life-sustaining resources on that community's worst day.
    We continue to champion our Strategic Plan, focusing on our 
three goals: first to build a culture of preparedness, second 
to ready the Nation for the catastrophic disaster, and third to 
reduce the complexity of FEMA.
    This job is about people, the disaster survivors we serve 
and individuals who serve them. Today the FEMA team is actively 
engaged in recovery missions from hurricanes in the Caribbean, 
floods in the Central Plains, wildfires in California to 
typhoons in the Northern Mariana Islands. It is my firm belief 
that if we take care of and empower the people of FEMA, then 
these dedicated public servants will deliver meaningful and 
much needed assistance to our citizens when they need it the 
most.
    Our Nation is counting on us, and we will do it in 
accordance with our core values of compassion, fairness, 
integrity, and respect. We are the sole owners of our mission, 
and each employee must be the embodiment of these core values.
    This month, we are going to release our capstone doctrine, 
FEMA Publication 1 entitled ``We are FEMA.'' With our core 
values as our guide, it will provide direction for how we 
conduct ourselves and make the best decisions for the agency 
and the disaster survivor. It will promote unity of purpose, 
guide professional judgment, and enable each employee to 
fulfill their responsibilities. This document coupled with our 
Strategic Plan, and our soon-to-be-released Blueprint for 
Business Excellence will serve as the roadmap for the future of 
the agency.
    We are not perfect. We must accept responsibility for our 
shortcomings and seek out solutions so our mistakes will not be 
repeated. However, for any failures we may have had, I can show 
you countless success stories, large and small, that have made 
a difference in bettering the lives of disaster survivors and 
furthering the preparedness of the Nation. Every day, the men 
and women of FEMA make me proud.
    I can think of no higher honor than serving the American 
people as the FEMA Administrator. Thank you for your 
consideration for my nomination. I look forward to answering 
any questions you may have.
    Chairman Johnson. Thank you, Mr. Gaynor.
    There are three questions the Committee asks of every 
nominee for the record, and I will ask these. And then I will 
turn it over to Senator Hassan and hold my questions for the 
end.
    First, is there anything you are aware of in your 
background that might present a conflict of interest with the 
duties of the office to which you have been nominated?
    Mr. Gaynor. No, sir.
    Chairman Johnson. Do you know of anything, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Mr. Gaynor. No, sir.
    Chairman Johnson. Do you agree without reservation to 
comply with any request or summons to appear and testify before 
any duly constituted committee of Congress if you are 
confirmed?
    Mr. Gaynor. Yes, sir.
    Chairman Johnson. Thank you. Senator Hassan.
    Senator Hassan. Well, thank you, Mr. Chair, again, and 
thank you, Mr. Gaynor.
    I just want to start by addressing a matter that has come 
to light since your previous nomination hearing before this 
Committee. According to documents that you submitted to the 
Committee, you disclosed that 1998, during your time with the 
Marines, that you were the subject of a command assessment and 
command investigation. Could you please describe the 
circumstances of this investigation to the Committee, and what 
were the results of this inquiry?
    Mr. Gaynor. Yes, ma'am. Thank you.
    As stated, in 1998, I was the commanding officer of 
Recruiting Station Detroit in Detroit, Michigan. A marine in my 
command who was under scrutiny for poor performance made 
several allegations and false claims about me and my command 
staff.
    As you know from the report, I was completely cleared of 
any allegations of bias or prejudice, as was my entire command.
    This was an unfortunate incident where there was a lack of 
sensitivity and poor communication that allowed for false 
claims to be perpetuated, and as I look back and reflect on 
this particular moment in my 25-plus years in the Marine Corps, 
it really reshaped the way I communicate with my superiors, my 
peers, and the people I lead at FEMA today.
    So I remain committed to creating a workplace that is 
diverse, inclusive, and ensuring everyone feels welcome and a 
part of the FEMA team.
    Senator Hassan. Well, thank you for that, and I appreciate 
the disclosure. And I thank you for discussing this matter with 
the Committee. I will leave it up for some of my colleagues if 
they want to follow up with you should they have additional 
questions.
    Mr. Gaynor, several weeks ago, FEMA's Director of the 
National Exercise Division, Mr. Chad Gorman, briefed me on 
FEMA's 2020 National Level Exercise. As you know, the 2020 
Exercise focuses around widespread cyberattacks with 
significant impacts to critical infrastructure, resulting in a 
domestic national security emergency. Do you agree with me that 
FEMA should play a role in mitigating the impact of 
cyberattacks on our State and local governments?
    Mr. Gaynor. Yes, ma'am. With our many partners, we are part 
of that response.
    Senator Hassan. And what steps will you take to ensure that 
FEMA is working closely with the Cybersecurity and 
Infrastructure Security Agency and prepared to keep pace with 
this ever-changing threat?
    Mr. Gaynor. Ma'am, there is not a week that goes by that we 
do not have a conversation with our partners at CISA. I 
personally have a close relationship with the director, and 
they are part of our national response when it comes to 
disasters.
    We just rewrote the National Response Framework (NRF), and 
cybersecurity and infrastructure is prominently in there. We 
have a solid relationship, and cyber is one of the top 
priorities for FEMA and for the Department.
    Senator Hassan. It is a top priority for me. It is a top 
priority for our constituents and I think for all of us who are 
familiar with aspects of emergency management, understanding 
that cybersecurity is critical to emergency management and 
critical to preparedness as well. It is something that we all 
have to keep in mind.
    Mr. Gaynor, as Ranking Member of the Subcommittee on 
Federal Spending Oversight and Emergency Management, I am 
particularly interested in ensuring that the Federal Government 
spends taxpayer dollars wisely and efficiently. Toward that 
end, did you know in 2018, a FEMA-sponsored report indicated 
that every dollar spent on Federal mitigation grants saves 
society $6 overall?
    So, during your time at FEMA, what steps have you taken to 
improve hazard mitigation efforts, and what steps will you take 
in the future?
    Mr. Gaynor. Yes, ma'am. So, first, let me thank Congress 
for passing the Disaster Recovery Reform Act (DRRA), which has 
a provision, Section 1234. We call it Building Resilient 
Infrastructure in Communities (BRIC), which allows us to set 
aside 6 percent of all disaster costs and make that investment 
in pre-disaster mitigation.
    So we are working on a new innovative transformational way. 
We look at pre-disaster mitigation in the Country. So that is 
the development of BRIC.
    Senator Hassan. Yes.
    Mr. Gaynor. Today Congress also provided a bridge from the 
legacy program, Pre-Disaster Mitigation (PDM), until we have 
BRIC on the streets in October 2020.
    Senator Hassan. OK.
    Mr. Gaynor. So today there is $250 million, five times what 
we traditionally had on the street legacy for States and locals 
to apply to today, start using some money to do pre-disaster 
mitigation that makes their jurisdictions more resilient and 
more robust.
    So we are really excited about the opportunity to really 
make a difference when we invest in pre-disaster mitigation to 
reduce that risk, loss of life and loss of property, before a 
disaster strikes.
    Senator Hassan. Thank you.
    Last topic. As you well know and as I mentioned in my 
opening, FEMA is struggling with serious problems relating to 
sexual harassment of its female employees. Last year, FEMA 
Administrator Brock Long called sexual harassment at the agency 
``a systemic problem going back years'' and said that one of 
his biggest challenges would be the ``eradication of this 
cancer.''
    It will be imperative that the next FEMA Administrator and 
any future FEMA Administrators have the highest integrity on 
this matter, that they lead by example and adopt a zero-
tolerance policy for sexual harassment.
    Simply put, changing an agency's toxic culture requires the 
top agency officials to set the tone for the entire agency.
    Toward that end, I am going to ask you the same series of 
questions that I asked the previous FEMA nominee that came 
before this Committee.
    First, have you ever been accused of or disciplined for 
sexually harassing your colleagues in any previous position?
    Mr. Gaynor. No, ma'am.
    Senator Hassan. Second, have you ever been accused of or 
disciplined for any inappropriate sexual behavior with a 
colleague?
    Mr. Gaynor. No, ma'am.
    Senator Hassan. Third, in your opinion, have you adopted a 
zero-tolerance policy for sexual harassment in the workplace in 
all of your previous positions?
    Mr. Gaynor. Absolutely, ma'am. Sexual harassment is not 
tolerated.
    Senator Hassan. Fourth, will you commit to taking swift 
action against any future instances of sexual harassment 
perpetrated by employees of FEMA?
    Mr. Gaynor. Absolutely.
    Senator Hassan. And, finally, what steps will you take 
specifically to change the culture within the agency, including 
to encourage reporting to punish transgressors and to train 
staff?
    Mr. Gaynor. Yes, ma'am. I think one of the most important 
things my predecessor Brock Long started and I in the process 
of making real is the Office of Professional Responsibility.
    Prior to this incident in 2017, it did not exist. There was 
nowhere for a female employee to go to really----
    Senator Hassan. Raise a concern?
    Mr. Gaynor [continuing]. Raise a concern and see it get 
validated and adjudicated to the end. So it has taken us a 
little while to get it stood up because we are doing this out 
of hide, making sure that this is our priority. So people in 
facilities, all those things take a little bit.
    The director I personally hired reports to me directly. I 
meet with her every day or every week about what cases are 
pending, the status of cases. This has the highest priority 
within FEMA, and it will remain so, because, again, sexual 
harassment is not tolerated at FEMA.
    Senator Hassan. Well, thank you, and we need every 
employee, male or female, to be operating at their full 
capacity and their full potential.
    Thank you, Mr. Gaynor, for your answers, and thank you, Mr. 
Chair. I yield back.
    Mr. Gaynor. Thank you, ma'am.
    Chairman Johnson. Senator Scott.

               OPENING STATEMENT OF SENATOR SCOTT

    Senator Scott. Mr. Gaynor, first of all, thank you for what 
you do.
    There is not a lot of people that started at the private 
level and get to commissioned officer in any branch of the 
service, and I am sure it was very difficult in the Marine 
Corps. So I want to thank you for your service as a marine. I 
want to thank your family for their commitment, and I just want 
to thank you.
    FEMA is not perfect, like no group is, but I can tell you 
what. There is not one person I have ever called at FEMA that 
they were not responsive, and the face of FEMA for me has been 
Gracia Szczech because she ran the Southeast my entire 8 years 
as Governor, and she just showed up all the time. Whatever I 
called about, she was responsive.
    To this day, people--as you know, everybody wants to blame 
everything on FEMA and think it is always FEMA's responsibility 
if something does not get done and FEMA is holding everything 
up, which I do not believe that is true. So I always tell 
everybody that you should call directly, Gracia Szczech, and 
she will find out where everything is. And she does it every 
time.
    So you should be really proud of the people you have.
    Mr. Gaynor. Sir, I have a great team. Gracia is one of 
those great teammates around the country. I have 20,000 great 
teammates that do their very best every day for the American 
public.
    Senator Scott. I think one of the biggest issues that FEMA 
has is people do not know your purpose. I think people think 
that, ultimately, FEMA is going to pay for everything, and they 
think that FEMA is a first response organization and an 
organization that is responsive generally to the Governor of 
the State or Territory and then to be supportive of locals.
    How do you get that message? First off, am I right, and 
then how do you get that message out?
    Mr. Gaynor. Yes, sir. Typically, people think that the 
Federal Government, to include FEMA, will make it all right. 
This is just not a problem at Federal Government. I have been 
in emergency management for 12 years now, and it is probably a 
challenge at every level of government, so local, State, and 
Federal, about setting the right expectations.
    As a local emergency manager and a State emergency manager 
and now the Acting Administrator, I tell people that FEMA does 
not make you whole, and that is something we have to discuss 
more. We have to create more awareness. We have to encourage 
preparedness across the Country so people take action to 
prepare themselves, their family, their business.
    I think as Senator Johnson alluded to, this is a shared 
responsibility we have responding to disasters. Locally 
executed, all disasters start locally and end locally. So the 
locals have to have a capacity. State managed, if the local 
gets----
    Senator Scott. If the locals do not do well, it is very 
difficult for FEMA to do well.
    Mr. Gaynor. If they do not do well, their backstop is the 
State that can redirect resources, and then from my point of 
view, I need States with great capacity because if I have 
States with great capacity, it makes it easier on me. So it is 
a shared responsibility up and down, not only for disasters but 
for preparedness.
    We are attacking that at all levels to make sure that we 
encourage the locals and States to build true local capacity, 
true State capacity, and therefore, you have more national 
capacity when you need it.
    Senator Scott. I think you have heard the story about how 
we would have a contract for our local debris cleanup was $8.50 
a cubic yard. Then there was a contract that the Corps had with 
the same sort of companies, with the same companies, with over 
$70.
    I have done a bill called the Disaster Contract 
Transparency Act. I do not know if you have had a chance to 
look at it, if you have any thoughts, but what do you think 
about something like that? What are you doing to try to make 
sure? Because there is not like unlimited dollars up there. 
That is what I tell everybody. If we waste money over here, 
there is less money to spend to do something that is good over 
here.
    Mr. Gaynor. Yes, sir. I think, again, going back to my 
local and State and now Federal experience, we are pretty good 
as locals and States and Federal in response. I think we do 
pretty well at that.
    One of the things I think we struggle with is recovery. 
Recovery has a long lead time. In some cases, big disasters 
become complicated and convoluted, and it is never fast enough, 
even if you are moving as fast as you can.
    So we encourage at every level, locals and States, to have 
recovery plans and test those recovery plans and exercise those 
recovery plans.
    We also encourage, I think, pre-disaster contracts that you 
are getting to. Have a contract ready to go when you need it 
should a disaster happen. Do not try to do it after the 
disaster because now you are competing with others who want the 
same thing that you want, in this case, debris removal, and in 
some cases, you pay a premium for that.
    The Corps of Engineers and DOD, they are premium providers, 
and they come at a cost. They do an awesome job. There is no 
one better at it, at debris removal or big tasks like DOD, but 
you are going to pay that premium on it.
    These disasters are not free. There is a cost to all of it, 
and again, I go back to it is a shared responsibility by all of 
us.
    Senator Scott. One issue that has impacted Florida is flood 
insurance. I think it is now 40 years since flood insurance has 
been around. We have been a 4:1 donor State.
    Then what we watched while I was Governor is in certain 
areas, we had a significant increase in our rates under the 
National Flood Insurance Program, and what I tried to do is get 
to build, the private sector. For a State like Florida, it 
would be a lot cheaper than participating in a national 
program.
    One, do you believe in that? What can FEMA do to help 
accelerate that? I think the more government can get out of the 
business of providing insurance or products that the private 
sector can do, it seems better to me at least.
    Mr. Gaynor. Yes, sir. I think there are a couple fronts on 
this.
    So when it comes to flood insurance and individuals, the 
best offense, if you are a homeowner, is flood insurance. It 
has flooded in 98 percent of the counties in the United States. 
So just because you are not in Miami or in Tampa does not mean 
you are not going to get flooded. If you are in Arizona or in 
the middle of the country, Midwest, likely you are going to 
have a flooding event during the length of mortgage of your 
home. So we want people to invest in flood insurance.
    If I can just tell you a story about what is that value 
that we offer in flood insurance. If I go back to Hurricane 
Harvey in Houston, we have a program called Individual 
Assistance (IA), and the max we can give an individual that has 
been, in this case, flooded out of their home is about $34,000. 
That is the max we could give out for assistance, temporary 
housing.
    The average we actually gave out in Florida was about 
$4,000. Very few people maxed out the $34,000 cap on that IA 
program.
    If you had flood insurance from NFIP, the average payout 
was about $110,000. You can do a lot with $4,000, but you can 
do much more with $110,000, especially if you get flooded out 
of your home. So it really is the best defense.
    On the other side about updating NFIP, it has not been 
updated. The actuarial practices have not been updated in 50 
years. We are on a course to make sure that insurance is risk-
based, is actuarially sound, and is property-specific, and so 
we are on a mission to update that. There are a lot of 
intricate moves we have to make with rates, and we want to take 
our time to make sure that we get it right.
    But back to the original premise, flood insurance is your 
best defense.
    Senator Scott. You do a great a job.
    Mr. Gaynor. Thank you, sir.
    Chairman Johnson. Senator Hawley.

              OPENING STATEMENT OF SENATOR HAWLEY

    Senator Hawley. Thank you, Mr. Chairman.
    Mr. Gaynor, I want to thank you on behalf of the people of 
Missouri for you and your team's work in the State, your hard 
work this year in what has been an unprecedented flooding 
season in the State of Missouri, and I enjoyed the chance to 
talk with you at some length about this last week in my office.
    Let me just ask you a few of the questions, a few of the 
topics to return to, a few of the topics that we discussed, 
beginning with Individual Assistance, and as I said to you 
then, this question of the distribution of IA is the top issue 
my constituents face when they are in the midst of the sort of 
severe flooding that we have experienced in my State. And I 
wrote to you about this on July 31, and you responded on August 
the 30.
    Let me just ask you. Among the issues that are very 
important to us in the State of Missouri is the designation, 
FEMA's designation of counties that might be eligible for IA. 
Can you explain a little bit how FEMA goes about making that 
designation? Because this is a question that I have at home all 
the time and that, frankly, Missourians want to hear about.
    Mr. Gaynor. Yes, sir.
    Just in the general look at a disaster, we try to look at 
every disaster as it is a unique disaster. We look at it on its 
own merits because we want to be fair and objective about the 
level of disaster and the level of impact on a community.
    When it comes to determining the level of impact in a 
community, we do this as a team. Local emergency managers, 
State emergency managers, and my team, the Federal emergency 
managers, go out into the community and look at damage from a 
disaster. So we call it a Preliminary Damage Assessment (PDAs).
    From all those PDAs, we determine does it meet criteria, 
and then it goes to the Governor of the State to determine if 
he or she wants to forward a request for a major declaration to 
the President.
    There is lots in between that, but that is the simple 
process. In some cases, it is obvious how big the damage is. In 
other cases, it takes a little while.
    Flooding is problematic. Especially this year, we have had 
flooding from the Canadian border to the Mexican border and as 
wide as Kansas through Kentucky and many other States in there, 
about 47 disasters this year out of about 70 disasters were 
flooding.
    Senator Hawley. Let me ask you this. Tell us about how FEMA 
communicates with and conducts assessments in hard-to-reach 
areas.
    In my State, the areas that have been hardest hit by the 
flooding, most of the areas have been hardest hit are rural. 
Some of them are very rural, and something that I hear a lot 
from folks there who have been affected is they do not know. 
They do not know what the status is of their claims. They do 
not know what FEMA is doing. They are not always sure how to 
get in touch with you or what the process is for submitting a 
claim. So how do you go about communicating that?
    Mr. Gaynor. Yes, sir. So, in a disaster, it is really door-
to-door, going out with that team and going door-to-door and 
seeing if people have been impacted, recording all that, 
encouraging people to register so they can be in the registry. 
So, if they have claim, we know about it, and we can track it.
    In some cases, power is down. You cannot get on your 
Internet. Maybe you have no telephone service. You cannot get 
on your telephone. But the last resort is knocking on doors and 
make sure we get to every single person.
    So it is intensive, but we want to make sure that we touch 
everyone and not miss anyone.
    Senator Hawley. Let me ask you about something odd that we 
have seen with the flooding in Missouri here this past year, 
and that is some of my constituents being awarded IA, and then 
FEMA asking for the money back.
    In one case in Craig, Missouri, for instance, FEMA demanded 
that a constituents rescind her IA because her home was a 
second home, but, of course, she had only acquired this so-
called second home because her first home was flooded and was 
unavailable. And she had applied for IA in Craig at her first 
home, where she lived for most of her life, but then when she 
moved to this other residence, then she was ultimately asked to 
give the money back. That is just one example. I have heard 
many similar cases.
    Can you elaborate for us how that kind of thing happens and 
what the right remedy is?
    Mr. Gaynor. Yes, sir. I mean, I cannot comment exactly on 
all the facts, but I would be happy to work with you and your 
staff to kind of maybe unravel some of those facts.
    Senator Hawley. That would be great.
    Mr. Gaynor. Not only on that one but any that you may have.
    So the way we operate is on eligibility. If it is eligible 
under the law, then typically, we will provide disaster 
assistance.
    The other thing that we have to balance is duplication of 
benefits. Is there another agency out there? Is insurance 
payout first? I mean, there is lots of different criteria that 
we use to make sure that, first of all, we get disaster 
assistance in the hands of disaster survivors and we keep with 
the intent of the law. We do not want to give more than the law 
allows because then again we are forced to come back--and in 
this case, the example that you gave, have to come back and get 
it. That is the last thing we want to do.
    In some cases, we are slow and deliberate to make sure we 
get it right the first time, but again, I would be happy to 
look into some of these cases and maybe provide some greater 
detail to you and your staff.
    Senator Hawley. Great. Well, we look forward to working 
with you on that, and I thank you again for the work that FEMA 
has done in Missouri this past year. A lot of Missourians still 
have questions. Of course, a lot of them are still out of their 
homes. I mean, the flooding has been quite severe in the State. 
The displacement has been broad and wide, and we look forward 
to continuing to work with you and your staff to make sure that 
people get the assistance that they need and that they get the 
information that they need in order to understand the process 
and apply and get the assistance.
    Thank you.
    Thank you, Mr. Chairman.
    Chairman Johnson. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Semper Fi.
    Mr. Gaynor. Semper Fi, sir.
    Senator Carper. Senator, Governor Scott was enlisted Navy, 
and I am the son of a 30-year Navy chief and a retired Navy 
captain myself. Navy Reserve Officers Training Corps (ROTC), 
Ohio State. Some of the best officers we had in the Navy, a lot 
of them came through a program called Navy Enlisted 
Classification Attainment Program (NECAP). Some of them we had 
were called Mustangs, and they were some of the finest officers 
I ever served with. So thank you for all of your service.
    Mr. Gaynor. Thank you, sir.
    Senator Carper. I like to tell people. People say, ``Well, 
what is Delaware like?'' I say, ``It is the 49th largest State 
in the Country, and it is because Rhode Island is out there 
that we hold that distinction. [Laughter.]
    Mr. Gaynor. We are going to hold on to that, I think, sir.
    Senator Carper. I have been to Rhode Island any number of 
times. I love your State. In fact, I remember being a 
midshipman on a destroyer out in Newport, the Dyess, DD-880, 
and that summer that I showed up, it was after my freshman 
year. I was about 18 years old. They were having the Newport 
Folk Festival. That was the year that Bob Dylan played rock and 
roll and got booed off the stage, a memorable summer.
    I also remember being on the Dyess, DD-880, out in the 
middle of the Atlantic and being run over by a hurricane, and 
that is not something I want to do again soon.
    Speaking of bad weather, some of my colleagues have been 
talking about bad weather that has visited their States. There 
is a place not far from here called Ellicott City that you may 
have heard of where they have had two 1,000-year floods within 
18 months.
    I was down in Houston when they had a really bad hurricane 
a couple of years ago. They have experienced, I am told, three 
500-year floods in Houston in about 2 years.
    My son, one of our sons, lives in the Bay Area in 
California. They have not gotten a lot of rain out there this 
year, and they have had, as you know, wildfires the size of our 
States and hurricane-force winds.
    Earlier this year, I was in Iowa, about a month ago, with 
my wife. We were campaigning for Joe Biden in the western part 
of the State in his bid for the presidency, and I remember 
going for a run along the Missouri River, where they had huge 
flooding, and even months later, you could still see the 
vestiges of the floods. The farmers were unable to plant for 
much of the spring. We had the same situation in Delaware.
    All of what I am doing--there is a great song by--speaking 
of music, a great song written by Stephen Stills, Crosby, 
Stills, and Nash, that starts off with the lyric, ``Something 
is happening here. Just what it is is not exactly clear.'' And 
for me, it is pretty clear what is going on.
    I just want to ask you, what do you think is going on?
    Mr. Gaynor. Yes, sir.
    I am just talking general disasters and maybe a little more 
on hurricanes. If you look at the last 75 years, hurricanes 
more frequent, more intense, closer together, have generated a 
larger impact on the United States, extremely costly disasters, 
and you go back to 2017 and 2018.
    One of the things that helps overcoming these larger more 
frequent disasters is investment in pre-disaster mitigation. We 
know we are going to have hurricanes.
    Senator Carper. What do you think is causing this? That is 
what I am asking. What do you think is causing this?
    Mr. Gaynor. I am not a scientist.
    Senator Carper. I am not either. There are a lot of 
scientists in the world, and they are pretty much in unanimity 
as to what is going on. What do you think is going on?
    Mr. Gaynor. I do not know, sir.
    Senator Carper. That is not a very good answer.
    Mr. Gaynor. But what I----
    Senator Carper. Stop.
    Mr. Gaynor. Yes, sir.
    Senator Carper. I asked my staff to let me know how much we 
are spending on disaster assistance just over the last couple 
of years, and I am told since 2005, it has approached a half 
trillion dollars. I think most Americans believe that the cause 
of this is a whole lot of carbon in the air, more than we have 
ever seen in the last, literally, million years. We have the 
scientific evidence to say that.
    The folks that were at the Government Accountability Office 
(GAO) really did not pay a whole lot of attention to climate 
change and invest what--the results of what is flowing from 
that. But in recent years, every 2 years, as you may know, at 
the beginning of every Congress, GAO puts out a high-risk list, 
and it is high-risk ways of us wasting money. They have become 
focusing on climate change.
    I guess my question of you is, Do you believe climate 
change is real?
    Mr. Gaynor. Sir, like I said----
    Senator Carper. It is not a tricky question. It is a pretty 
simple yes/no question. If you do, say so. If you do not, say 
``I do not.''
    Mr. Gaynor. The climate has changed. I cannot attribute the 
scientific reasons why.
    Senator Carper. I am not asking you to do that.
    If you are confirmed, how will your knowledge of climate 
change inform your actions as FEMA Administrator?
    Mr. Gaynor. Yes, sir.
    So I think one of the greatest things that Congress has 
done for us is the DRRA, investment in pre-disaster mitigation. 
For every $1 invested, before a disaster hits, we will get a $6 
return post-disaster. For me, it is really a practical thing 
about my mission.
    So we are committed to preparing for and responding to 
disasters, no matter the cause. We are an all-hazards agency, 
and one of the greatest tools you have provided is this pre-
disaster mitigation funding, 6 percent set-aside. So we can be 
prepared for whatever happens, no matter the cause, and that is 
really my focus as the FEMA Administrator.
    I am going to be graded for what happens tomorrow, right? 
So if I can reduce the risk, if I can save lives by making 
investments today, if I can reduce damage to property by making 
investments today, then that is my mission.
    Senator Carper. I think GAO released a report that stated 
at the height of the 2017 disasters, a little over half of the 
staff, I think, at FEMA were serving in a capacity that they 
did not hold the title of qualified, qualified according to 
FEMA's qualification system standards. The GAO report noted 
that FEMA staff shortages and lack of trained personnel led to 
complications in response efforts, particularly after Hurricane 
Maria.
    I think it is understandable how after a large disaster, 
staff can take on roles that they may not have been fully 
prepared for or trained to handle. Due to the magnitude of the 
situation, that is understandable.
    However, if confirmed, how will you ensure that when the 
next disaster hits--we know it is coming. They are all coming, 
and how can you assure us that we will have more qualified 
individuals serving where we need them?
    Mr. Gaynor. Yes, sir.
    I believe I have one of the highest-quality, ready 
workforces in Federal Government. When it comes to 
qualifications, many of our FEMA employees have a blue-sky job 
and many of them have a dual-disaster job. So qualifications 
are in constant need of update and upkeep because turnover is 
great. So we are looking on ways to improve, making sure people 
are qualified for their disaster work.
    When it comes to response and recovery, again, I will 
divide this into two pieces when it comes to staffing 
challenges. Response, we have no shortage of people who 
respond. Our challenge today is really on the recovery side.
    Again, I have 650 disasters that have been open since the 
year 2000 that we are dealing with. The hurricane season in 
2017, 2018, historic. I have 2,300 people in Puerto Rico right 
now assisting in the recovery of the Commonwealth. We have a 
program underway. It has been underway for a while to make sure 
that we aim at the qualified people that we need and to fill 
those ranks as fast as we can.
    Senator Carper. All right. If I could ask one last thing. 
There are several of us who serve here on this Committee are 
former Governors, and my last year as Governor, I gave my last 
State address, I was in the Governor's office afterwards and 
receiving. There is a whole lot of people, open house and 
people coming through to say hello and congratulations.
    One lady, an elderly lady, came up, an she said to me--she 
was going through my office. She said, ``Were you the Governor 
the year when we had the ice storm of the century?''
    I said, ``Yes, ma'am.''
    She said, ``Were you the Governor the year when we had the 
blizzard of the century?''
    I said, ``Yes, ma'am.''
    She said, ``Were you the Governor when we had the drought 
of the century?''
    I said, ``Yes, ma'am.''
    She said, ``Were you the Governor when we had the flood of 
the century?''
    I said, ``Yes, ma'am.''
    And she said, ``You know what I think?''
    I said, ``No, ma'am.''
    She said, ``I think you are bad luck.'' [Laughter.]
    That may be true, but we are lucky we have FEMA. And we are 
grateful to all the people with whom you work and lead.
    Mr. Gaynor. Thank you, sir.
    Senator Carper. Thank you for your extraordinary service, 
both now and in uniform.
    Mr. Gaynor. Thank you.
    Chairman Johnson. I think we probably ought to share i-List 
tunes. For somebody who likes folk music, I am surprised you 
did not quote Jackson Browne's ``Before the Deluge'' here.
    One of the problems we are facing is just the moral hazard 
of rebuilding in flood-prone areas, building incredibly 
expensive properties on shorelines that we know at some point 
in time are going to be hit by hurricanes. Just the general 
affluence of our society has created these, the cost of 
mitigation or some of these disasters as well, but that is part 
of the issue. Senator Rosen.

               OPENING STATEMENT OF SENATOR ROSEN

    Senator Rosen. Thank you.
    I wish I had a song to quote. I have to come more prepared 
for that.
    But, really, I would want to say to you as we think about 
Veterans Day this week, we honor and are grateful for your 
service and your continued service. Like you said, this 
important mission that helps make our families and our 
communities whole again after a disaster that often takes away 
their priceless memories, pictures, their homes, all the little 
things that--people want to keep their lives, but all those 
things that make a home and a community, so thank you for that.
    But I would like to switch a little bit to talk about the 
Urban Areas Security Initiative (UASI). UASI is a vital program 
for protecting people in Las Vegas. I represent the State of 
Nevada. It helps protect Las Vegas, our critical infrastructure 
and our tourism economy. UASI grants assist high-threat, high-
density urban areas like Las Vegas in preventing, mitigating, 
responding to, and recovering from terrorist attacks, and FEMA 
oversees this program.
    The UASI program ensures that urban law enforcement 
departments have the resources they need to defend large 
metropolitan areas against terrorism, but the program needs 
reform in order to better serve densely populated tourist 
destinations like Las Vegas.
    Nevada is home to a year-round population of about 3 
million people, but just in Clark County, in the Las Vegas area 
alone, we have nearly 50 million visitors a year. We host more 
than 20,000 conventions. So this really impacts our UASI-
related needs. With this in mind, last year when I represented 
Nevada in the House of Representatives, I joined my Nevada 
colleagues in sending a letter to then DHS Secretary Nielsen 
about changing the UASI funding formula.
    I was pleased that one of the results of the letter is that 
FEMA incorporated visitor and special event data into its risk 
assessment profile, which determines the aid received.
    Will you consider making changes to the risk assessment 
formula permanent so that visitor and special event data 
continue to be considered?
    Mr. Gaynor. Yes, ma'am. And we are always looking at the 
formula because we want to make sure that we reflect the 
current risk, and risk is dynamic, and it changes over time. So 
we want to make sure that that grant is meeting the need when 
you need it. Like you said, we added different criteria to the 
grant.
    Also, this year we are going to add another criteria to the 
grant. We are going to put back in chemical facilities as a 
weighted element of the formula.
    So we are always looking at it. That grant is ultimately 
approved and has eyes on from the DHS Secretary. We have to go 
brief him or her----
    Senator Rosen. Right.
    Mr. Gaynor [continuing]. About how that all falls out. So 
it gets the highest scrutiny to make sure that it is fair and 
it is consistent.
    Senator Rosen. I want to ask about potentially one more 
change because I want to talk to you about disaggregating the 
qualifying assets.
    Right now, the Las Vegas Strip is clustered. It is 
considered one asset, even though there are more than 35 hotels 
along the strip. Twenty of the 30 largest hotels in the world 
are in the Las Vegas Valley, and a single property in Las Vegas 
at any one time can have over 70,000 employees and tourists. 
But, DHS clusters, all of these properties as one entity, and 
counts them as only one single asset for the formula.
    So, again, can you commit to coming to my office to talking 
about how we can de-aggregate this and look at our critical 
assets in a different way? We are not just one entity in the 
Las Vegas Boulevard, and the McCarran Airport, if you have been 
to Las Vegas, it sits right at the end of some of our largest 
hotels.
    Mr. Gaynor. I will absolutely commit to meeting with you 
and your staff. I will have all my grant experts that 
specialize in this and formula. We will come over, and we will 
hear you out.
    Senator Rosen. I will come take them on a tour up and down.
    Mr. Gaynor. They would love that.
    Senator Rosen. They can see that.
    I want to switch in my brief time left over to something 
that happens a little bit more in northern Nevada, which is 
wildfire. Of course, when we questioned the previous nominee, 
we talked about this a little bit.
    So, in August 2018, the South Sugarloaf fire scorched over 
230,000 acres in northeastern Nevada. It prompted the 
evacuation of about 300 people. It threatened infrastructure, 
State Route 225, multiple power lines, cell towers, radio 
towers. It destroyed public and private lands. It affected our 
ranchers, our recreation, and our wildlife.
    So despite this devastation and despite my Nevada 
colleagues in the State fighting for funding, FEMA denied the 
State of Nevada's request for a Fire Management Assistant Grant 
(FMAG) because the fire did not threaten such destruction that 
would constitute a major disaster.
    So, again, we have to look at the current criteria that you 
use, it might need to be reevaluated, as we have more and more 
critical wildfires to evaluate applications and grants that 
makes it so difficult for our rural communities not just in 
Nevada--we all have them--that they receive funding, whether it 
is flooding, as we previously talked about, or wildfires.
    In rural areas, they do not have structures to destroy, but 
the land is what people live off of. So it is difficult to 
qualify.
    So can we talk about what you might think about helping our 
rural communities in flooding and wildfires?
    Mr. Gaynor. Absolutely, ma'am.
    Just a little bit on the purpose of Fire Management 
Assistant Grants, these are grants that we give to jurisdiction 
that have fires, and the purpose of it is really to make sure 
that the local or the State has enough capacity to deal with 
the fire, so it does not turn into a major disaster.
    When we consider what qualify--and I am not speaking 
exactly about your----
    Senator Rosen. No, I understand. Yes.
    Mr. Gaynor. But just generally, we look at what economic 
impact will it have. Will the impact from a fire create an 
economic impact that will result in a large federally declared 
disaster? That is generally one of the criteria we look at, but 
I would be happy to discuss----
    Senator Rosen. We can talk about scale, so it is not all or 
nothing. Maybe there are scales or things that we can put in 
there. I know some of my friends in every other State with 
rural communities would appreciate it too.
    Mr. Gaynor. Yes, ma'am.
    Senator Rosen. Thank you.
    I yield back.
    Chairman Johnson. Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. It is good to see you again. We have had 
the opportunity to be able to visit multiple times. Obviously, 
you have been around this Committee several times. In your 
earlier role, you visited my office several times. We would 
talk about different FEMA issues.
    In Oklahoma, I appreciate your engagement----
    Mr. Gaynor. Thank you, sir.
    Senator Lankford [continuing]. And your work on detail as 
you go through the process.
    You and I have spoken about the by-out process, and this 
goes back to mitigation. You have been a big advocate for to 
say if we are looking in advance of a disaster, that is a lot 
cheaper to be able to do it there than it is after the disaster 
to do debris cleanup.
    We have an issue with the buy-out, in the buy-out process, 
just length of time becomes the driving force. It is not 
uncommon for it to take 2 years or more to be able to go 
through a buy-out. This is a home that has been through 
disaster probably twice or more. That the State and local 
authorities step in and say, ``We want to use our mitigation 
dollars to help clear some of these properties out, so we are 
not perpetually dealing with folks in a flood plain or another 
major disaster area that we expect will happen again in this 
same area.
    What can we do to shorten the decision time for buy-outs 
and for those mitigation dollars? We have a 12-month lock-in at 
this point. Could we do a 3-month lock-in, a 6-month lock-in, a 
9-month? Should there be some variables there, ways for States 
to get involved in this earlier? Because this is shared funding 
between the Federal Government and local communities on those 
buy-outs. What are creative ideas we can have to be able to 
help shorten that time period?
    Mr. Gaynor. Yes, sir.
    And we talked about this in your office, and I promised you 
that I would get you some of the best practice from around the 
country to kind of shorten that timeline.
    Again, if I go back to my local and State emergency 
management days and face these same kind of things, buy-outs, 
it never moves fast enough.
    Senator Lankford. Right.
    Mr. Gaynor. I grant----
    Senator Lankford. Flood insurance is better by far and 
faster by far to be able to do it that way.
    Mr. Gaynor. These things are complicated because it is just 
not FEMA. It is the State. It is the State environmental 
management. It is local zoning codes, building codes, local 
officials that have a say in it, the Environmental Protection 
Agency (EPA). All those people are involved in getting the 
stamp of approval on these kinds of things.
    I will commit to you that I will follow up. I will get you 
best practice on how we can shrink that time because it is 
never fast enough if you are not in your home as a disaster 
survivor.
    Senator Lankford. Yes. As you know from working on local 
communities that you have done in the past, if you have been 
through a major flood, which in the north as part of our State, 
they have been recently through a major flooding event, and 
they are told, ``OK. We are looking at buy-out, but it is a 
year before we can make the decision, and then there are 
several processes that happen after that year.'' And you are 
trying o figure out, ``Am I going to live in a hotel for a 
year? Am I going to live with my cousin for a year? What am I 
going to do at some point to be able to try to manage this for 
a year?'' And even if it is a year into it, now the decision is 
not really made. It may be 2 or 3 years before the decision is 
actually made.
    At that point, people start rebuilding. We pay individual 
assistance to be able to help folks rebuild and then eventually 
buy it out and lose money twice on it.
    That is still cheaper than having a perpetual flood event, 
but if there is a way the Federal taxpayer can save money and 
the individual can get on with their lives, that improves 
everything. So I appreciate that engagement.
    Let me ask you a little bit about some of the mitigation 
still, which you have been such a great advocate for. There are 
several rural communities in my State that they have chosen not 
to do the mitigation plans, which means individuals within 
those communities cannot get flood insurance. What would you 
say to local communities about doing mitigation plans? Because 
some of them say it is too much paperwork, not going to go 
through this, do not have the manpower to be able to do it. But 
then individuals in the community that want to get flood 
insurance cannot get it.
    Mr. Gaynor. Yes, sir.
    I would encourage every local county that does not have a 
mitigation plan to get one. Again, speaking as my time as a 
local and State emergency manager, I think it is the 
responsibility of the local government to have one.
    We can provide through the regions, the 10 regions around 
the country and headquarters, technical assistance to help 
locals build a plan. The plan exists in other places, and so it 
is not something you have to build from scratch. Lots of help 
is out there.
    But it really is, I think, the obligation, and again, I go 
back to locally executed, State-managed, federally supported. 
You have an obligation to make your local community as ready as 
it can be and ready for the next disaster.
    Senator Lankford. Right.
    Mr. Gaynor. So I would put the onus back on the local. 
Having been one, I know it is hard. The bandwidth is small. 
Resources are slight, but it really is, I think, you have to do 
your due diligence to get it done.
    Senator Lankford. Would you grab a couple of emergency 
management folks around the State? Get them to ask some of 
their locals why they have not filled out the paperwork and why 
they have not done it and just to see if there is something 
that could ben simplified in the process----
    Mr. Gaynor. Yes, sir.
    Senator Lankford [continuing]. So that they go through 
that, so again, encourage people to be able to buy flood 
insurance. It helps for more folks to be able to have it, but 
if the locals find the paperwork onerous or the process 
onerous, then they do not do it. Then it just trickles down and 
becomes a more and more complicated issue. So maybe it is 
something that can be fixed. I am not going to tell you I have 
the idea on that, but I will bet a couple of folks in emergency 
management from around the Country could say, ``We could do 
this better if''----
    Mr. Gaynor. Yes, sir.
    I think between States and the Federal Government, 
technical assistance is available on many different things, to 
include this.
    Senator Lankford. Right.
    I appreciate it. We have also had a conversation about 
houses of worship.
    Mr. Gaynor. Sure.
    Senator Lankford. You go back a couple years ago. FEMA 
excluded all houses of worship of all type, saying they are not 
eligible. FEMA has now redefined that, quite frankly, coming in 
line with the U.S. Constitution, which is a good thing to be 
able to come inline with and to be able to say OK. Houses of 
worship are just like every other facility in every other 
community. You cannot say to a library and a museum that you 
are eligible, and if you are a house of worship, I am sorry 
that you are not. They are a community organization, just like 
the museum and the library is, so treating all entities the 
same.
    I just want to tell you I would just appreciate it not to 
discriminate on a place because they actually do worship there 
and other places they just meet as a community there. So that 
is a fair way to be able to do that.
    You brought me some recent statistics on the engagement, 
and I appreciate that, and we will continue to be able to 
follow up in every way that we can just to be able to make sure 
that continues to be just treated the same, no matter what that 
building is.
    Mr. Gaynor. And that is our goal, sir. I mean just part of 
the way we do business.
    Senator Lankford. Right, it is. I appreciate that very 
much. Thanks for stepping up in the leadership and for 
continuing to take the reins.
    Mr. Gaynor. Thank you for your support. Thank you, sir.
    Chairman Johnson. Senator Romney.

              OPENING STATEMENT OF SENATOR ROMNEY

    Senator Romney. Mr. Gaynor, thank you for being willing to 
take on what is often a thankless task, but it is often a 
target for blame, a challenge.
    Do I detect a New England background in her heritage?
    Mr. Gaynor. Yes, sir. Rhode Island. You may be familiar 
with that small county.
    Senator Romney. Yes. It is a southern county of Boston, as 
I recall.
    Mr. Gaynor. Something like that, yes, sir. [Laughter.]
    But we are all Patriots fans, though, sir.
    Senator Romney. That is exactly right.
    Thank you. I presume that FEMA does get involved in helping 
various institutions determine how they can reduce the 
probability of disasters occurring, and I am thinking in 
particular of wildfires.
    My colleague from Nevada, who is about to escape my 
question here, Senator Rosen and I have spoken about the 
concerns of wildfires. There are some of us who are concerned 
that we do not have anywhere near enough equipment to put out 
wildfires before they become major conflagrations. Do you get 
involved in providing counsel to other agencies of the Federal 
Government, such as the Bureau of Land Management (BLM) and so 
forth or the Forestry folks to take action that would reduce 
the risk of wildfires running completely out of control?
    Mr. Gaynor. Yes, sir. I think we do it on multiple paths. I 
think our greatest focus of effort is with our State emergency 
management partners and to either build capacity or improve 
capacity.
    If you look at the State of California, they have access to 
preparedness grants, whether it is a Homeland Security grant, 
UASI grant. They have a significant investment over time, with 
appropriate funds also. They have about 2,500 firefighting 
pieces of apparatus that they have invested in and made sure 
that it is spread across the State to respond to those 
disasters.
    I will go back and say that it is about equipment, but it 
is also about mitigation, pre-disaster mitigation.
    Senator Romney. Oh, yes.
    Mr. Gaynor. And not just wildfires, but pre-disaster 
mitigation for every hazard out there. If you invest ahead of 
time, reduce the risk to people, reduce the risk to loss of 
property. We will be better off once that disaster occurs. 
Hopefully, it will never occur, but we have to be ready for the 
worst-case scenario.
    So I think it is in everyone's interest to mitigate and to 
include wildfires.
    Senator Romney. I think there is a potential for us to 
manage our forests in a much more effective way to reduce the 
risk of major wildfires, and that will be something that you 
could have some input in to the various agencies that have 
responsibility for our forests and our public lands.
    You also have responsibility for flood insurance. Why do we 
have Federal flood insurance as opposed to having private 
insurance companies provide for flood insurance?
    Mr. Gaynor. I think, historically, sir, that the Congress 
approved the flood insurance program over 50 years ago, and 
this is the world in which we live today.
    When I came to FEMA, I did not realize I owned an insurance 
program. I own the largest single-peril insurance of flood in 
the country. Now, there is some providers that provide flood 
insurance on their own but not really enough.
    To go back to my previous statements, flood insurance 
really is the best offense. We need to make sure that it is 
affordable, that it reflects accurate risk, and that it is 
building specific. We are working on updating that through our 
Risk Rating 2.0. We are going to take a pause because we have a 
little more work to do, a little more due diligence, and 
understanding the rates to make sure the rates are right that 
reflect risk. We need to do it for all 50 States.
    We need to do more analysis on risk for levees. We are not 
just there yet.
    And I think the biggest thing we have to do is make sure we 
raise awareness about why flood insurance is so important and 
why homeowners should make sure they have flood insurance if 
they have that flood risk.
    Like I said before, 98 percent of the counties in America 
have flooded. It is just a matter of time before your home gets 
flooded, and insurance is the best defense.
    Senator Romney. I applaud your willingness to take a very 
close look at creating accurate risk assessments and 
determining the premiums for flood insurance, and I do believe, 
in many cases, that the people are able to rely on FEMA to 
provide for them, even if they do not have flood insurance. If, 
in fact, you do not need to get flood insurance and FEMA is 
going to come in and provide funding for you to rebuild, 
whether or not you have the insurance, why, it creates a 
disincentive to actually purchase that insurance.
    I hope that we apply, if you will, private-sector thinking 
to what is a public-sector program, flood insurance, in such a 
way that we actuarially are pricing flood insurance and 
responding to disasters for those people who have insurance in 
a different way than for those that do not.
    Mr. Gaynor. Yes, sir.
    I will just share we actually moved about $2.3 billion of 
our liability to reinsurance. We have been doing about a 
billion dollars a year. We think that that has been very 
successful. We are very well looked at by the commercial 
insurance business, and we will continue to do that. If we can 
share some of that risk, some of that liability with the 
private sector, it is better for the taxpayer.
    Senator Romney. Yes. People in my State are concerned, in 
Utah are concerned about, in many cases, outdated mapping of 
the price associated with their flood insurance, and in some 
cases, the flood maps are as old as 20 years old. During that 
time, the cities or towns have taken steps to make it far less 
likely that a flood might occur.
    Is it possible for us to update these maps on a more timely 
basis? Is there an effort underway, or can you make sure that 
there is an effort underway to update the mapping of risk, so 
that premium rates can be more fair and reasonable?
    Mr. Gaynor. Yes, sir.
    So we update 20 percent of the catalog every year, and we 
have 5 years before we return to the next--that we start over 
again. So every 5 years, we will update the maps that need 
updating. So we are doing that today. Congress provided 
significant funding to make sure we keep up with that. It has 
been very successful.
    I think part of it in the Risk Rating 2.0 update is really 
to look how we use maps. Right now, between the flood zone 
lines, if you have ever seen some of those maps, it is a steep 
drop-off that really does not reflect a graduate risk as you 
look at the entire flood zone.
    In some cases, you may be right on the coast, and you may 
be underpaying your premium, where somebody behind you a couple 
blocks is paying more. We want to make sure that is fair and is 
reflective of distance from the coast, the type of building 
that you are in, the cost that it is going to take to put that 
building back together, should it be flooded. All those 
factors, we are looking into to make sure that maps reflect 
risk and that risk reflects your premium.
    Senator Romney. Thank you.
    Chairman Johnson. Thank you, Senator Romney.
    Mr. Gaynor, you have made a lot of pretty interesting 
statements. You said FEMA does not make you whole. I am not 
sure that is true.
    I think one of the problems--and Senator Romney is really 
talking about the moral hazard of how we approach these things, 
but we have these major disasters. America is a very 
compassionate country, and then Congress just appropriates tens 
of billions of dollars, not just for the 1 year but 5 years out 
in the future. We do not have the information on this, and so 
that signals to just about everybody that if we have a major 
disaster, the Federal Government will come in, whether we have 
the money or not. We will just print the money, and we will try 
and make those communities as whole as possible. Is that part 
of the issue here?
    Mr. Gaynor. Well, again, sir, I think it goes back to 
shared responsibility.
    If you just look at Stafford Act authorities--and I am just 
talking general terms. If a State gets a major disaster 
declaration, it is a shared, 75 percent Federal, 25 percent 
State. So you have a stake in the game in that disaster.
    Now, is that the right balance? I think we could probably 
debate that, but it is a shared responsibility.
    Chairman Johnson. In theory, it is supposed to be 75 
percent, but is that actually what happens?
    Mr. Gaynor. The majority of times, it is, sir. In some 
cases, depending on factors, it can go up as high as 100 
percent. I am sure you are aware of those, 90-10. But for the 
most part, it is 75-25.
    Chairman Johnson. Well, that is the problem. When it is 
such major and you have so much compassion, it is 100 percent. 
Everybody kind of expects, well, something really bad happens, 
Federal Government, come bail us out.
    Mr. Gaynor. Yes, sir.
    Chairman Johnson. You talked about flood insurance. It is 
not priced properly. It is certainly not priced based on the 
risk to a particular dwelling or property based on hurricanes 
or flood. So those individuals not in hurricanes, in States not 
in hurricane zones or in flood plains, basically, through tax 
dollars are subsidizing that moral hazard, correct?
    Mr. Gaynor. Yes, sir. We have to do work on it to make sure 
that it is affordability and it is fair.
    Chairman Johnson. I think we need to speak very honestly 
about this. We need to get the data behind it, and we have to 
come up with a program where we stop subsidizing this and we 
stop creating this moral hazard. That is the only way we are 
going to start really doing true mitigation here.
    Mr. Gaynor. Yes, sir.
    Chairman Johnson. You talked about the FMAGs. You started 
talking a little bit about fire. I am no expert at all, but I 
have to admit I keep looking at these wildfires in California. 
I ask the question. I mean, are they removing the fuel? Is 
there no way to create firebreaks? I mean, to what extent has 
California done that? How much further do they need to go?
    Mr. Gaynor. So I will first say, sir, again, pre-disaster 
mitigation, whether it is wildfires or it is another hazard is 
really in our best interest.
    I have a pretty close relationship with the State Director, 
Mark Ghilarducci, and have had several conversations with 
Governor Gavin Newsom, especially this year with wildfires. 
California has done a pretty respectable job about trying to 
mitigate, and again, I think they are upholding our theme of 
locally executed, State-managed, and federally supported.
    Chairman Johnson. They do fund a lot.
    Mr. Gaynor. They do. Almost $400 million last year to 
reduce the wildfire risk. They have a new California Fire Plan 
that looks at building codes and building materials and tries 
to reduce risk to life and property. Again, this is a shared 
responsibility.
    Chairman Johnson. I mean, that is when a fire is raging 
over a house. What about preventing the fires to spread as much 
as they do?
    Mr. Gaynor. Yes, sir. Fires start in many different ways. I 
am sure that some are preventable. So if you think about power 
companies and those kind of things that are started, I am sure 
there is more you can do to do cutbacks from power lines. In 
some cases, it is Mother Nature that creates these fires.
    But, again, I go back to investment in pre-disaster 
dollars. What can you do to reduce that risk ahead of time, 
knowing that it is going to happen? I think really whether it 
is a wildfire or it is flooding or hurricanes, we just need to 
do a better job in pre-disaster mitigation. That investment, 
6:1 payout at the end. It is really in our best interest.
    Chairman Johnson. But I have been looking at the map and 
going, ``Here is the real vulnerable zones. We are going to 
remove fuel. We are going to create much larger firebreaks, so 
these fires cannot jump into residential communities.'' Again, 
I am not from California. It is horrific, and I have nothing 
but sympathy for those individuals. But are they doing that 
basic mitigation effort?
    Mr. Gaynor. I am not a wildfire expert either, sir. I would 
be happy to look into some of the details about what they have 
done and what they are doing and what they are planning to do. 
I would be happy to research that information and meet with you 
and your staff. I would be happy to do that.
    Chairman Johnson. I would like to know that because every 
year, you have the same problem and just going what more can 
they do.
    Mr. Gaynor. OK.
    Chairman Johnson. I want to turn attention in terms of 
FEMA's key role in terms of recovery.
    We had a few years ago the blue ribbon study panel on 
biodefense, and that recommendation to that panel first of all, 
somebody has to be in charge. If something were to happen, 
whether it is a biochemical weapon attack--but the same could 
be said of a kinetic attack on our power grid or 
Electromagnetic (EMP) or Geomagnetic Disturbance (GMD).
    I think when we have these hearings, when I talk to Federal 
officials, when it comes to recovery, people pretty much point 
to FEMA. Well, it is going to be FEMA leading this.
    First of all, are you aware of that? Are you ready for it, 
and who in your mind would you be reporting to in that type of 
situation? Let us say it is a bio-attack.
    Mr. Gaynor. So just in recovery, sir, in general, I think 
you are right. I think most people point at FEMA that we are 
going to come to the rescue, and we are going to manage the 
entire recovery.
    We are trying to change that dynamic today, making sure 
that locals and States invest in the things that are important 
to them.
    I look back at my time as a local and State emergency 
manager. The success and response is fantastic, but that 
response is short.
    I think true success in emergency management program in a 
State is recovery. If you are successful in recovery, you are 
successful as an emergency manager.
    So everyone should have a State recovery plan. They should 
have pre-disaster contracts. They should do all those things, 
do their due diligence, to make sure they are ready should a 
disaster happen because it is not a matter of if. It is just a 
matter of when.
    The question on bio, I would have to go refer to legal 
authorities on that.
    Chairman Johnson. Again, it is not really a specific 
threat. It is really when something would really shut things 
down. We would just have a major disaster, whether it is 
hurricane, fire, whether it is shutting down the electrical 
grid, whatever.
    Again, I continue to have a concern because we have heard 
it repeatedly that we need somebody in charge. Again, it always 
seems to fall--``Well, it is going to be FEMA that is going to 
help recover.'' So one of the questions I want to ask you is 
you have been there a year now. Administrator Long, birth by 
fire, within days, weeks, all of a sudden, he had this just 
unprecedented level of disaster on hurricane and wildfire.
    You fortunately did not face that kind of level of 
disaster. What is your annual cycle as Administrator of FEMA? 
Obviously, you have hurricane season. You have fire season. You 
are going to be totally focused on that. Do you have time to 
kind of step back when you are not dealing with these huge 
disasters to plan, to mitigate?
    Senator Lankford was talking about localities that do not 
do mitigation plans, so their citizens do not qualify for flood 
insurance. Do you have the bandwidth and the time to actually 
try and manage so you have some FEMA help for those communities 
that do not have mitigation plans? Kind of map it out. Here are 
the communities that do not. These are the people that do not 
have flood insurance as a result. Let us proactively go help 
those communities or those regions.
    Mr. Gaynor. Yes, sir. If you go back to 2017 and 2018, 
really historic disaster seasons and really stretched FEMA and 
some of our partners to deliver those disaster services to 
disaster survivors. That did stretch us.
    So there is an ebb and flow to a season, so from hurricane 
season to flooding to wildfire, and every day is earthquake 
season. So we have to be prepared for that.
    Set aside another 2017, I think we have enough bandwidth to 
do all those things you were talking about. We are doing them 
today. We will do them tomorrow. Should we have a big season? 
We will have to sideline some of that, but I think those are 
anomalies.
    Chairman Johnson. So if you are in between disasters and 
just kind of sitting there almost twiddling your thumbs, what 
is the first thing you are going to pick up that you have kind 
of been putting off to the side because you have not had time?
    Mr. Gaynor. So, sir, we are never twiddling our thumbs. 
[Laughter.]
    Chairman Johnson. I did not think you were, but let us 
pretend.
    Mr. Gaynor. From my first day at FEMA, it is breathtaking 
about all the things that we are responsible for. The obvious 
things, disaster, all kinds, all shapes, from American Samoa to 
U.S. Virgin Islands, 9,300 miles that we are responsible for.
    Flood insurance. I did not know I own that insurance 
company. Continuity of Government. Not many people know I own 
Continuity of Government. Preparedness programs. And the list 
goes on and on and on about the things that we do that are not 
disaster-related.
    I think one of the things that I have had a revelation 
about is that much of my time is really not disaster, managing 
the act of disaster. It is all those other things that we have 
to do. People doing all those kinds of things are the things 
that we do every day.
    We have had a really kind hurricane season this year. It 
gives us more bandwidth to accomplish those things. It is about 
balancing priorities, and we try to achieve that every day.
    Chairman Johnson. So the answer is all of the above, which 
is again one of the reasons I think you have seen us 
consistently thank you and your family.
    Mr. Gaynor. Yes, sir.
    Chairman Johnson. This is a full-time responsibility and 
probably very thankless. A lot of blame if it is not perfect. 
So, again, we truly do appreciate your service.
    Mr. Gaynor. Thank you, sir.
    Chairman Johnson. Senator Sinema.

              OPENING STATEMENT OF SENATOR SINEMA

    Senator Sinema. Thank you, Mr. Chair. Thank you, Senator 
Hassan, and thank you to our witness for being here.
    The Phoenix region is one of the fastest growing in the 
Nation, and the Phoenix-Mesa-Scottsdale Metropolitan 
Statistical Area (MSA), comprises just under 6 million people, 
and that is made up of residents, commuters, and daily 
visitors.
    So our Phoenix first responders depend on the UASI to keep 
Arizona safe. The UASI program assists high-density and high-
threat Metropolitan Areas to prevent, mitigate, respond to, and 
recover from acts of terrorism.
    But the program, we believe, is missing a key metric for 
determining funding levels, and that is proximity to an 
international border.
    Our UASI district is just 30 miles away from the United 
States-Mexico border, yet only visits who enter the Country 
through Phoenix Sky Harbor International Airport are measured 
for the threat assessment. We believe it is vitally important 
to expand the UASI metrics to include proximity to the border.
    So my question for you is, if confirmed, would you review 
the UASI and work to include proximity to a high-traffic border 
when measuring relative risk for funding allocations?
    Mr. Gaynor. Yes, ma'am. And as I stated before, a similar 
question, we are always analyzing risk because risk is dynamic. 
The threat changes over time. Many of these grants are post 9/
11 grants, and some of those threats have changed over time. So 
we want to make sure that the grants that we have today reflect 
risk, and through some of those formulas, we try to balance all 
that.
    So I will be happy to send my grants experts and my formula 
experts to kind of see what we can do to assist in making it 
fairer.
    However, I need to be fair to the entire field of 
applicants when it comes to UASI. You would be surprised that 
even small changes in threat, risk, vulnerability change the 
order in some cases. Your score may not have changed at all, 
but somebody above you has changed and moved you out because 
the formula works that way.
    But I would be happy to have a conversation with you and 
your staff on grant formula.
    Senator Sinema. Thank you.
    In particular, as you have seen in recent events, 
individuals who are living in Arizona near the border see 
increased threats from massacres from dangerous activity and, 
of course, continuing gang and drug activity. So this is very 
concerning for us in Arizona.
    Mr. Gaynor. Absolutely.
    Senator Sinema. Thank you.
    There also remains concerns in Arizona regarding the FEMA 
grant program that provided assistance to non-governmental 
organizations (NGO's) that helped migrants who are released 
into communities. In Arizona, our NGO's stepped up and played a 
critical role in helping manage the crisis at our borders this 
past spring, but my office has heard concerns that the program 
rules and application process were confusing and that they kept 
changing.
    So FEMA has invited those who have already received funds 
and those who did not to submit follow up applications as 
needed. My question for you is what steps is FEMA taking to 
make sure that the NGO community understands the program and 
understands the rules, and then, of course, looking forward, 
what lessons can FEMA take from the tough rollout of the 
program to improve the grant programs in the future?
    Mr. Gaynor. Yes, ma'am. So this is the $30 million 
supplemental, I think, to help the border crisis. About $8 
million is on the street right now, and we are going to reopen 
the grant period in January, this coming January.
    This week, my FEMA team that runs this program is actually 
out in New Mexico and Texas doing a listening tour, doing 
exactly what you are asking to have happen in your State to 
help with documentation, help with the application, kind of 
give them technical assistance, so that they can be eligible to 
apply.
    I think that was one of the difficulties when we rolled 
this out.
    Senator Sinema. That is right.
    Mr. Gaynor. And we are on the street today trying to change 
that direction, change that dynamic, so more can apply because 
there is still money on the table.
    Senator Sinema. I would invite him to come visit us in 
Arizona, and my office would be happy to give you a list, the 
NGO's, both those that did apply and received money, those who 
applied and did not receive money, but also those who stepped 
up to provide assistance without any interaction with FEMA. 
There are a number of organizations that did a yeoman's amount 
of work without ever having any kind of formal interaction with 
the Federal Government.
    Of course, as you have noted, we anticipate, unfortunately, 
that there will be another surge of individuals who come in the 
spring because this crisis has not yet been resolved.
    Mr. Gaynor. Yes, ma'am. I will follow up with you and your 
staff----
    Senator Sinema. Thank you.
    Mr. Gaynor [continuing]. And we will try to get that team 
out to Arizona.
    Senator Sinema. Thank you.
    My last question for you is about wildfires in Arizona. As 
you know, they pose a significant risk, and this year, over 
372,623 acres have burned as a result of wildfires. That is 
just in my State.
    So our fire companies depend on grants from FEMA to make 
sure that they have the tools they need to protect both life 
and property.
    The President's Fiscal Year (FY) 2020 budget proposed 
sweeping cuts to these grants, and that is concerning to us 
because these are grants that help our firefighters do their 
job. So my question is how you and the Department will ensure 
that Arizona's first responders have the resources they need to 
respond to wildfires and keep Arizona safe.
    Mr. Gaynor. Yes, ma'am. Annually, we put out about $2.3 
billion in preparedness grants, a whole host of different 
programs, UASI, Emergency Management Performance Grant Program 
(EMPG), Staffing for Adequate Fire Emergency and Response 
(SAFER) Grants to fire, and part of my challenge as the 
Administrator is some of these grants have turned into 
entitlement grants. Sustainability and maintenance really 
snuffs out the ability to do innovation and to follow emerging 
threats. So we are trying to right-size grants so they keep up 
with the threat, the risk that is appropriate for your 
jurisdiction.
    It is one of our priorities to make sure that we deliver 
that capability through grants to locals because if you build 
capability at the local level, you build State capability. If 
you build State capability, you build national capability. So 
we are committed to make sure that firefighters have all the 
support that we can give them through these grants.
    Senator Sinema. I appreciate that.
    As you know, due to a number of factors, weather patterns, 
drought, and of course, not having the ability or the financial 
support to provide low-level clearance for forests has actually 
increased the risk of fire in places like Arizona and other 
parts of the Southwest. So this is as growing concern for our 
communities.
    As you know, a number of years ago, Arizona actually 
suffered the loss of 19 firefighters from the Yarnell fire. 
That is something we want to make sure never happens again in 
my State or in any other State in this country.
    Mr. Gaynor. Yes, ma'am.
    Senator Sinema. So I look forward to working with you on 
that, and thank you again for being here.
    Mr. Gaynor. Thank you.
    Senator Sinema. Mr. Chairman, my time has expired. I want 
to thank you for allowing me to participate this morning.
    Chairman Johnson. I appreciate you coming. Senator Hassan.
    Senator Hassan. Thank you, Mr. Chair.
    I just had a quick comment and a question because there has 
been a lot of discussion about the shared responsibility of 
local, localities, counties, States, and the Federal Government 
when it comes to natural disaster response.
    We have had a good discussion about the importance of 
mitigation and the importance of everybody investing in 
mitigation regardless of level of government.
    This is just a comment. I do not expect you to respond to 
it, Mr. Gaynor. As a country, one of the things we need to do 
to mitigate our risk is to address climate change. Much of the 
extreme weather we are seeing is a result of climate change, 
and we can have whatever debate we want to have about what 
causes climate change, but the science is very clear and the 
recommendations are very clear about what we could be doing to 
address climate change as a Nation.
    Luckily, some of our cities and States continue to do the 
work that right now the Federal Government is not doing, in my 
view, as much as it should have, but I just want to make that 
note because at a certain point, asking localities, small towns 
in New Hampshire, to keep reinvesting in new infrastructure, to 
keep up with the extremity of the weather they are seeing is 
just not a fair ask.
    The second thing--and this is a question--we have talked 
about moral hazards and perceptions perhaps that sometimes 
individuals or certain localities are expecting the Federal 
Government to come and help them and do all of the repair and 
recovery.
    As a former Governor, that has not been my experience. In 
fact, at times, my experience has been the people said, ``We 
qualify for FEMA assistance here, but it is a lot of paperwork. 
We are just going to do it ourselves.''
    But the bigger point is this. The reason we have a Federal 
response capacity is that sometimes these disasters are so big 
that they wipe out every part of local infrastructure. So you 
do not have--if your first responders do not have homes because 
the storm just came through and wiped them out--I know a lot of 
heroic first responders who come to work anyway while their 
families are figuring out where they are going to go.
    But have you seen, Mr. Gaynor, in your experience--and I am 
thinking of Puerto Rico here. Their capacity to mount a 
response was deeply impacted by the severity of hurricane 
Maria. So there are times that the Federal Government really 
does need to come in and be the major responder, and I just am 
wondering if you see that from time to time.
    Mr. Gaynor. I think being from the smallest State in the 
Union, I feel your pain----
    Senator Hassan. Yes.
    Mr. Gaynor [continuing]. Because the capacity of Rhode 
Island compared to the capacity of Texas is much different.
    Senator Hassan. Right.
    Mr. Gaynor. So what is a small disaster in Texas may be a 
major disaster in Rhode Island or Delaware. So I am 
particularly sensitive to that.
    I want to be the honest broker with my background as a 
local and State and now acting Federal FEMA Administrator about 
we all have a role to play here, and you have to do what you 
can do within your locality to keep your community safe.
    If something really bad happens, we will be there. There is 
no doubt about it, but we need to be more honest about what we 
expected, all levels, so we have a truly prepared and resilient 
Nation.
    Senator Hassan. I think that is exactly the right approach. 
It is a balanced approach, but just I wanted to go on the 
record with sometimes, on matter how well a locality or a State 
has prepared, Mother Nature has a different idea.
    Mr. Gaynor. Absolutely.
    Senator Hassan. Thank you.
    Chairman Johnson. Thanks, Senator Hassan.
    As somebody who obviously raised that issue of moral 
hazards, let me also say that--because I talked about how 
compassionate this Country is, but we also see in--I do not 
care what disaster we are talking about, what tragedy we are 
talking about. We just see heroes at a local level rise to the 
occasion, and it just kind of reaffirms your faith in our 
fellow citizen. So, I mean, that is, across the board, we see 
that.
    I mentioned in my opening comments too, in 2017, FEMA 
deployed other Federal agencies as part of the Surge Capacity 
Force for the first time ever, and the stats on that, 4,063 
members deployed from 28 different agencies, 8 DHS components, 
and they worked 24/7 during that unprecedented hurricane 
season. Again, I saw the men and women.
    Did you want to comment on that, Mr. Gaynor?
    Mr. Gaynor. Sir, thank you. So we have ``emergency'' in our 
title. So I think people just expect that we are the single 
responders to these emergencies or disasters. It is actually a 
whole-of-government response.
    We have many partners that have unique capabilities that we 
rely on that we just do not have. So whether it is DOD or the 
Department of Health and Human Services (HHS) or any of our 
Federal partners, we are all together, and it is unique, I 
think, for government, so whether local or State, whether you 
are at the local emergency operations center or the State 
emergency operations center or the National Response 
Coordination Center right down the street. This is where all of 
government comes together to help disasters and disaster 
survivors get over the hard spot and get them on the road to 
recovery. It is absolutely unique to see, and I think we do a 
pretty good job at it.
    Chairman Johnson. It is actually a whole Nation response.
    We had caravans coming from all over the Nation taking 
building materials, roofers, people bringing food stuffs and 
other needed items. You just pick your disaster you want to 
talk about. It is really a whole Nation response. That is what 
is so extraordinary about this country.
    So, again, Mr. Gaynor, your family, thank you for your 
service. From my standpoint, I am very confident and want to 
support your nomination. I hope this passes unanimously through 
the Senate as quickly as possible.
    The nominee has made financial disclosures and provided 
responses to biographical and prehearing questions submitted by 
the Committee. Without objection, this information will be made 
a part of the hearing record,\1\ with the exception of the 
financial data which are on file and available for public 
inspection in the Committee offices.
---------------------------------------------------------------------------
    \1\ The information for Mr. Gaynor appears in the Appendix on page 
41.
---------------------------------------------------------------------------
    The hearing record will remain open until 12 p.m., 
tomorrow, November 15th, for the submission of statements and 
questions for the record.
    This hearing is adjourned.
    [Whereupon, at 11:03 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------   
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              




                                 <all>
</pre></body></html>
